                                     Report Number A100083/O/W




                         
                         
                         
                         
                         


         IMPLEMENTATION REVIEW OF
          CORRECTIVE ACTION PLAN

    REVIEW OF GSA’S UNIVERSITY FOR PEOPLE
           NATIONAL CAPITAL REGION
      REPORT NUMBER A050250/O/W/F06017
            DATED AUGUST 28, 2006

         REPORT NUMBER A100083/O/W

                 April 16, 2010
 

 

 

 

 

 

 

 

 
                              u.s.   GENERAL SERVICES ADMINISTRATION
                              Office of Inspector General




Date:      April 16, 2010
           '"1p'if~ ~. -tI-;~/P-A
                                     ~
Reply to
Attn of:   Barbara E. Bouldin
           Regional Inspector General for Auditing
           National Capital Region Field Audit Office, Office of Inspector General (JA-W)

Subject:   Implementation Review of Corrective Action Plan

           Review of GSA's University for People National Capital Region
           Report Number A05025010/wIF06017 Dated August 28, 2006

           Report Number A 100083/0MJ

To:        Gail T. Lovelace
           Chief People Officer (CPO)

           This report presents the results of the implementation review of the corrective action
           plan developed in response to the recommendations contained in the Review of GSA's
           University for People National Capital Region (Report Number A05025010/w/F06017).

           Background

           The University for People (U4P) was established in 1997 as a result of a customer
           service lab initiative within the National Capital Region (NCR). At the time of our initial
           review, U4P was an NCR component. On September 15, 2009, U4P was transferred to
           the Office of the Chief People Officer as part of an agency-wide General Management
           and Administration reorganization. U4P's mission remained to provide a continuous
           learning environment, in which employees have the opportunity to develop their talents,
           think creatively, and set goals that are consistent with personal and agency needs.
           U4P's current customers are GSA internal organizations. Training courses are provided
           by vendors under contract with U4P.

           On August 28, 2006, our office issued a report presenting the results of our review of
           procurement practices and contract administration within the U4P. On November 9,
           2006 we received an action plan that addressed our recommendations and identified
           specific steps U4P and the Public Buildings Service Acquisition Management Division 1

           1   Formerly the Regional Acquisition Management Division.



                                            7th & D Streets, SW, Washington, DC 20407
                                                                       ~
                                           Federal Recycling Program   ~,   Printed on Recycled Paper
                                                           Report Number A100083/O/W




(WPP) should take to enhance the value U4P brings to the GSA and the federal
community.   Appendices A and B include the review recommendations and
management’s action plan, respectively.

Objective, Scope, and Methodology

The objective of the implementation review was to determine whether the corrective
actions included in the November 9, 2006 action plan have been fully implemented.

To accomplish the review objective, we:
   •   Reviewed the original report entitled Review of GSA’s University for People
       National Capital Region (Report Number A050250/O/W/F06017 dated August
       28, 2006);

   •   Reviewed the November 9, 2006 action plan and related documentation
       submitted in response to the original report;

   •   Held discussions with U4P and WPP officials, as well as Internal Control and
       Audit Division (BEI) personnel;

   •   Obtained U4P Memorandum of Agreements for the period March 2009 through
       January 2010, including associated funding documents (IX documents);

   •   Reviewed U4P’s internal Reported Income Spreadsheet for the period October
       2009 to January 2010 and Training Course Spreadsheet for the period October
       2009 through March 2010;

   •   Requested Blanket Purchase Agreement (BPA)-level acquisition plans from
       WPP;

   •   Tested the addition of a manual link between U4P funding documents and task
       orders in the Financial Management Information System for all task orders
       included in U4P's Reported Income Spreadsheet for the period October 2009
       through January 2010; and

   •   Analyzed 20 U4P task orders awarded March 2009 through January 2010 with a
       total value of $1,341,769.

We conducted this review between January and March 2010.




                                                                    2
                                                             Report Number A100083/O/W




Results of Review

We found that management did not complete all of the corrective actions included in its
action plan. The exceptions we identified are related to procurement support provided
by WPP.

Original Recommendation #2 – Develops and maintains acquisition plans to
support its business plan.

Action Plan Action to be Taken – Ensure appropriate purchase specific
acquisition plans at time of purchase.

We found that U4P, supported by WPP, has not fully implemented this action. The
General Services Administration Acquisition Manual Subpart 507.104(c)(1) states,
“When awarding…a BPA for a specific requirement and agency, an acquisition plan will
be developed for the base contract. The resulting orders should be covered by and
reference the same acquisition plan.” The 20 task orders we sampled were issued
against 5 distinct BPAs; however, WPP did not provide an acquisition plan for 4 of the 5
BPAs.

Original Recommendation #3 – Obtains appropriate procurement support and
institutes the formal controls necessary to properly administer the resulting
contracts. Vendor documentation and reporting requirements are elements of
control that should be considered in the acquisition plan.

Action Plan Action to be Taken – Ensure Task Orders specify: course name, date,
location, and period of performance.

Some of the task orders in our sample did not contain all the required information. All
20 of the task orders were dated and included a course name; however, the period of
performance was missing on 2 task orders and the course location was absent from 8
task orders.

Conclusion

As a result of our analyses and testing, we determined that U4P’s implementation of the
corrective action plan was incomplete. As discussed above, deficiencies remain for two
of the four recommendations. Accordingly, a revised action plan should be submitted to
the Internal Control and Audit Division (BEI) within 30 days. In developing the revised
action plan, U4P should ensure that WPP is informed of the audit-specific requirements
for U4P procurements.


                                                                        3
                                                             Report Number A100083/O/W




Internal Controls

The scope of this review was limited to an assessment of whether appropriate
corrective action, as stated in the November 9, 2006 action plan, was taken by
management. Thus, our assessment and evaluation of internal controls was limited to
the issues identified in the original report and discussed in the Results of Review
section. If you have any questions regarding this review, please contact Audit Manager
Marisa A. Roinestad at (202) 260-6490.

Management Response

The Office of the Chief People Officer concurred that the corrective actions included in
management’s action plan were not fully implemented. Management’s response is
included as Appendix C.




                                                                        4
                                                             Report Number A100083/O/W




APPENDIX A
    REPORT NUMBER A050250/O/W/F06017 RECOMMENDATIONS

 

                      A050250/O/W/F06017 Recommendations

    On August 28, 2006, the Office of Inspector General recommended that the Acting
    Regional Administrator for GSA’s National Capital Region ensure that U4P:

       1. Develop a formal business plan that includes a description of the business,
          its potential customers, marketing, competition, operating procedures,
          personnel, funding source and income projections.

       2. Develop and maintain acquisition plans to supports its business plan.

       3. Obtain appropriate procurement support and institute the formal controls
          necessary to properly administer the resulting contracts.        Vendor
          documentation and reporting requirements are elements of control that
          should be considered in the acquisition plan.

       4. Establish appropriate fund and account controls to ensure compliance with
          applicable appropriation law and facilitates program management.        A
          completed course database could help administer the MOAs. Also, open
          data fields within Pegasys could be used to identify and capture financial
          events by MOA and by curriculum.

                                            
                                            
                                            
                                            
                                            
                                            
                                            
                                            
                                            
                                            
                                            
                                            
                                            
                                            


                                                                       5
                                            Report Number A100083/O/W




APPENDIX B
    ACTION PLAN – REPORT NUMBER A050250/O/W/F06017

 

 

 




                                                     6
Report Number A100083/O/W




         7
Report Number A100083/O/W




         8
Report Number A100083/O/W




         9
Report Number A100083/O/W




         10
Report Number A100083/O/W




         11
                          Report Number A100083/O/W




APPENDIX C 
    MANAGEMENT RESPONSE

 




                                   12
Report Number A100083/O/W




                         


         13
                                                            Report Number A100083/O/W




 


APPENDIX D
    REPORT DISTRIBUTION




                                          Chief People Officer (CPO)

         Acting Regional Administrator, National Capital Region (WA)

                                         University for People (WAD)

                             Internal Control and Audit Division (BEI)

                         Assistant Inspector General for Auditing (JA)

               Director, Audit Planning, Policy, and Operations (JAO)

                     Director, Administrative and Data Systems (JAS)

                                      Special Agent In-Charge (JI-W)

                              Office of the Chief Financial Officer (B)

                                       Office of Inspector General (J)
 

 




                                                                          14
